Ma r c os E. H as b u n
Zuc k er m an S p ae d er L L P
m has bu n @ zu c k er m an. c om

April 22, 2021
VIA ECF & FIRST CLASS MAIL
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Tri-State Zoological Park of Western Maryland, Inc., et al. v. People for the
Ethical Treatment of Animals, Inc., No. 20-1183

Dear Mr. Harris:
We represent the Respondent, People for the Ethical Treatment of Animals,
Inc, in the above-referenced matter. The petition for a writ of certiorari was filed on
February 23, 2021, and docketed on February 25, 2021. On March 12, 2021,
Respondent moved to extend the deadline to file a brief in opposition from March
29, 2021 to April 28, 2021. Respondents’ motion was granted on March 15, 2021.
We respectfully request a second 30-day extension of time within which to file
the brief in opposition, which would then be due on May 28, 2021. Between now and
the current due date of the brief, I and other counsel representing the Respondent
have substantial obligations in other cases, including some that have arisen
unexpectedly since the date of our first request. We therefore request this extension
in order to carefully consider and respond to the arguments raised by Petitioners.
Petitioners have not consented to this request.
Thank you for your assistance.
Sincerely,
/s/ Marcos E. Hasbun
Marcos Hasbun
cc:

Adam B. Abelson, Zuckerman Spaeder LLP
Lynn Thomas Krause, Counsel of Record for Petitioners

1 0 1 E . K E N N E D Y B L V D . , S U I T E 1 2 0 0 , T AM P A, F L 3 3 6 0 2 - 5 8 3 8 | T 8 1 3 . 2 2 1 . 1 0 1 0 | F 8 1 3 . 2 2 3 . 7 9 6 1
Z U C K E R M AN S P AE D E R L L P | W AS H I N G T O N , D C | N E W Y O R K | T AM P A | B AL T I M O R E
7687935.1

